HHS/OIG, Audit -"Audit of Nursing Facility Staffing Requirements at Pioneer Manor Care Center,"(A-07-03-04027)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Audit of Nursing Facility Staffing Requirements at Pioneer Manor Care Center," (A-07-03-04027)
October 24, 2003
Complete
Text of Report is available in PDF format (342 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether Pioneer Manor Care Center (Pioneer Manor) was in compliance with
Federal and State staffing laws and regulations for nursing facilities. Pioneer Manor is a 150 bed Nursing Facility located
in Gillette, Wyoming. Pioneer Manor complied with Federal and State staffing laws and regulations with one exception.  Specifically,
Pioneer Manor did not always document that employees were subject to a reference check and verification that the employee
was not excluded from Federal health care programs. Wyoming regulations require facilities to maintain personnel records
for each employee and those should be current and available and should contain sufficient information to support placement
in the position assigned.